No.
IN THE

Supreme Court of tJje Hmteb States
JOSEPH FINDLER IV,
Petitioner,
v.
CHRISTOPHER WRAY, ET AL„
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify
that the Petition for a Writ of Certiorari contains 8,943
words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under perialty ofjsejgnxy that the fjbregoing
is true and correct. Exi

JOSEPH FINDL

